No. ________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ESAD LEMO,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Esad Lemo, pursuant to Title 18, United States Code, Section
3006A(d)(7) and United States Supreme Court Rule 39, asks leave to file the
attached Petition for Writ of Certiorari without prepayment of costs and to
proceed in forma pauperis. Pursuant to the Criminal Justice Act of 1964, as
amended, the United States District Court for the Western District of
Pennsylvania appointed the Federal Public Defender’s Office to represent
Petitioner.

DATED: May 21, 2021

Respectfully submitted,
/s/ Lisa B. Freeland
LISA B. FREELAND
Federal Public Defender
Counsel of Record
KATHRYN BAILEY
ELISA A. LONG
Assistant Federal Public Defenders
Western District of Pennsylvania
Suite 1500, 1001 Liberty Avenue
Pittsburgh, Pennsylvania 15222
(412) 644-6565

Case 2:15-cv-00824-LPL Document 5 Filed 08/10/15 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

ESAD LEMO,
Petitioner,
v.
SUPERINTENDENT GLUNT and
THE ATTORNEY GENERAL OF
THE STATE OF PENNSYLVANIA
Respondents.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 15 - 824
Magistrate Judge Lisa Pupo Lenihan

ORDER
AND NOW THIS 10th day of August, 2015, the Court being satisfied that the above
named Petitioner is financially unable to obtain counsel, and said Petitioner not having waived
the appointment of counsel, and that the appointment of counsel is warranted given the facts of
this case,
IT IS HEREBY ORDERED that the Federal Public Defender, 1450 Liberty Center,
1001 Liberty Avenue, Pittsburgh, Pennsylvania 15222, phone number (412) 644-6565, is hereby
appointed to represent the Petitioner in all matters pertaining to this action. Counsel shall enter
an appearance on the docket within seven (7) days of the date of this order.
IT IS FURTHER ORDERED that should counsel desire to file an amended petition, it
will be limited to 30 pages and must address the following issues:
(1) Whether the claims have been exhausted in state court and the state court's
holding as to those claims,
(2) The standard of review under AEDP A as to each claim, and

Case 2:15-cv-00824-LPL Document 5 Filed 08/10/15 Page 2 of 2

(3) The timeliness of the claims under AEDPA.

s/Lisa Pupo Lenihan
Lisa Pupo Lenihan
United States Magistrate Judge

cc:

Esad Lemo
HZ – 0563
S.C.I. Rockview
Box A
Bellefonte, PA 16823 - 0820

Case 2:15-cv-00824-LPL Document 22 Filed 02/22/16 Page 1 of 1
Case 2:15-cv-00824-LPL Document 21-3 Filed 02/18/16 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

ESADLEMO,
Petitioner,

v.
SUPERINTENDENT GLUNT, eta!.,
Respondents.

)
)
)
)
)
)
)
)
)

Civil Action No. 15-824

ORDER

Petitioner Esad Lemo's Motion to Expand the Appointment of the Federal Public
Defender is hereby GRANTED. The appointment of the Federal Public Defender's Office is
expanded to include the representation ofEsad Lemo in his attempts to exhaust his claims in
state court.

